                                Office of lnspector General
                               Corporation for National and
                                        Community Service




  QUALITY
        CONTROL  REVIEWOF RAFFA,P.C.,
    OMB CIRCULAR  A-1 33 AUDITOF THE
   COUNCILOF THE GREATCITY SCHOOLS,
    FISCALYEARENDEDJUNE30,2005
           OIG REPORT
                    NUMBER
                         06- 34




                       Prepared by:

               Office of Inspector General
         Corporation for National and Community
                          Service
                1201 New York Avenue
                Washington, DC 20525



This report was issued to Corporation management on September 21, 2006.
Under the laws and regulations governing follow-up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than March 21, 2007, and complete its corrective actions by September 21,
2007. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                               cmxmmyJmAL &
                               COMMUNITY
                               SERVICE
                     OFFICEOF INSPECTOR
                                     GENERAL
                                       July 5,2006

Raffa, P.C.
Certified Public Accountant


SUBJECT:      Quality Control Review of the Raffa, P.C., Certified Public Accountants,
              Office of Management and Budget (OMB) Circular A-133 Audit of the
              Council of the Great City Schools, Fiscal Year (FY) Ended June 30,2005


The audit fm of Raffa, P.C. (Raffa) performed a single audit of the Council of the Great
City Schools (CGCS) for the fiscal year ended June 30,2005. Office of Management and
Budget (OMB) Circular A-133, "Audits of States, Local Governments, and Non-Projt
Organizations" requires the audit. We conducted a quality control review of the Raffa
audit of the CGCS.

RESULTS

Raffa's audit documentation for testing did not meet generally accepted government
auditing standards (GAGAS) or the requirements in the OMB Circular A-133 and its
related supplements for these five areas:

       Cash Management
       Eligibility
       Matching, Level of Effort, Earmarking
       Procurement, Suspensions, and Debarments
       Reporting

BACKGROUND

The CGCS was established in 1956 and incorporated in 1961. The CGCS headquarters is
located in Washington, DC. The CGCS is comprised of approximately 65 of the nation's
largest urban public school systems. The CGCS and its member school districts are
dedicated to challenging the nation's diverse student population with the highest
academic standards and preparing all students to be productive national and international
citizens.

The Corporation for National and Community Service (Corporation) awarded CGCS
Grants Nos. 01ADNDC009 and 04NDHDC002, which became effective on September 1,
2001, and August 1, 2004, respectively. The Department of Education (DOE) awarded
CGCS Grant No. S350C010120. The AmeriCorps grant (04NDHDC002) was the only

                                           *
                 1201 New York Avenue, NW Suite 830, Washington, DC 20525
                                 *                      *
                    202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
                     Senior Corps * AmeriCorps * Learn and Serve America
major grant for the FY ending June 30, 2005, and was the only grant selected for testing
for the OMB Circular A-133 audit. For the year ended June 30, 2004 Raffa audited the
DOE'S grant as a major program. Raffa issued an unqualified opinion on both the June
30,2004, and June 30,2005, CGCS OMB Circular A-133 Audits.

OBJECTIVE

The Office of Inspector General (OIG), Corporation for National and Community
Service, performed the quality control review of the Raffa report and supporting working
papers for the CGCS Fiscal Year 2005 single audit. The objectives of the quality control
review were to determine the extent to which the OMB Circular A-133 Audit (single
audit), was conducted in accordance with generally accepted government auditing
standards (GAGAS) and the auditing and reporting requirements of OMB Circular A-133
and its related Compliance Supplement (the Supplement). OMB issues the Supplement
to assist auditors in meeting the requirements of OMB Circular A-133.


                    QUALITY CONTROL REVIEW PROCESS


SCOPE AND METHODOLOGY

We conducted a quality control review of the Raffa OMB Circular A-133 single audit of
the CGCS for the fiscal year ended June 30, 2005. It was performed March 1-2, 2006, at
Raffa's Washington, DC offices.

In conducting our review, we assessed the audit documentation prepared by Raffa. We
aIso discussed the audit with Raffa personnel at an exit conference on May 15, 2006. We
emphasized the areas that are of major concern to the Federal Government, such as
determining and auditing major program compliance and internal controls.

SNGLE AUDIT REQUIREMENTS

The Single Audit Act and OMB Circular A-133 are designed to improve the financial
management of State and local governments and nonprofit organizations. The Act and
OMB Circular A-133 establish uniform auditing and reporting requirements for all
Federal award recipients that are required to obtain a single audit. OMB Circular A-133
establishes policies that guide implementation of the Act and provide an administrative
foundation for uniform requirements of non-Federal entities administering Federal
awards. OMB Circular A-133 requires that Federal departments and agencies rely on and
use the single audit work to the maximum extent practicable. Entities that expend
$500,000 or more of Federal awards in a fiscal year are subject to the Act and the audit
requirements in OMB Circular A-133 and, therefore, must have an annual single or
program-specific audit performed in accordance with GAGAS.
To meet the requirements of the Act and OMB Circular A-133, the auditee (non-Federal
entity) submits to the Federal Audit Clearinghouse a reporting package on each single
audit.

The OMB Circular A-133 policies and guide include a Supplement to assist auditors in
identifying the compliance requirements that the Federal Government expects to be
considered as part of the single audit. For each compliance requirement, the Supplement
describes the related audit objectives for the auditor to consider in each audit conducted
in compliance with OMB Circular A-133 as well as suggested audit procedures. The
Supplement also describes the objectives of internal controls and characteristics that,
when present and operating effectively, help ensure compliance with requirements. The
following 10 compliance requirements identified in the Supplement may be material to an
Amencorps major program:




The American Institute of Certified Public Accountants (AICPA) Audit Guide provides
guidance on auditor responsibilities for conducting audits according to the Act and OMB
Circular A-133. In general, the Audit Guide provides auditors with an understanding of
the unique planning, performance, and reporting considerations for single audits
performed in compliance with GAGAS. In addition, the Audit Guide uses summary
tables and detailed discussions to provide the auditor with an understanding of GAGAS
general, fieldwork, and reporting requirements.

                                 REVIEW RESULTS

Audit documentation for tests of compliance with Cash Management; Eligibility,
Matching, Level of Effort, Earmarking; Procurement Suspensions, and Debarments
and Reporting was not prepared in accordance with GAGAS requirements.

GAGAS 4.22, Field Work Standards for Financial Audits, requires that "[aludit
documentation related to planning, conducting, and reporting on the audit should contain
sufficient information to enable an experienced auditor who has had no previous
connection with the audit to ascertain from the audit documentation the evidence that
supports the auditors' significant judgments and conclusions. Audit documentation
should contain support for findings, conclusions, and recommendations before auditors
issue their report."

Cash Management - The audit documentation does not provide adequate support to
demonstrate that the auditor performed the audit procedures. Other than relying on the
auditor's statements, a third party would be unable to validate the auditor's test work or
determine whether the CGCS met grant cash management requirements.

Raffa's Compliance audit program states "[wlhere applicable, select a sample of
reimbursement requests and trace to supporting documentation showing that the cost for
which reimbursements was requested were paid prior to the date of the reimbursement
request." The workpapers indicate that the Raffa auditor randomly selected four
reimbursement requests for testing, agreed reimbursement requests to the general ledger
without exception, verified expenses were incurred prior to reimbursement, and
reconciled draws with expenses incurred. However, the audit documentation does not
provide corresponding support, such as: (1) request for funds, (2) draw down
information, (3) schedule of the expenses examined, (4) time period of the expenses
examined, (5) comparison of the expenses incurred and the corresponding request for
funds, and (6) reconciliation of expenses to the general ledger that would demonstrate
that the auditor performed the audit procedures.

Additionally, OMB A-133 Compliance Supplement, Part 3. Compliance Requirements,
Section C. Cash Management, Suggested Audit Procedures, states that the auditor should
select a sample of subgrantees to determine the appropriateness of the procedures, and
determine whether the subgrantees are reimbursed in a timely manner. The audit
documentation concludes that the subgrantees were reimbursed prior to the CGCS
drawing down grant funds. However, the audit documentation does not include any
information, such as: (1) draw down request and information, (2) subgrantee
reimbursement request, (3) reimbursement checks, or (4) test schedules and
documentation to validate whether reimbursement transactions were reviewed for
appropriateness.

Eligibility - Raffa did not describe the type of documentation it reviewed to determine
AmeriCorps eligibility. As a result, a third party would be unable to determine, other
than by accepting the auditor's statements, whether the documents reviewed for the
selected members met the requirements of 45 C.F.R. 5 2522.200(a) Eligibility; 5
2522.20001) Written declaration regarding high school diploma; and 5 2522.200(c)
Primary documentation of status as a U S . citizen or national.

The Raffa Audit Manager stated that the subgrantee program directors input member
application data into the Corporation's Web Based Reporting System (WBRS) and that
the subgrantees believed this process adequately demonstrated that the programs had
received the requisite documentation to certify and approve applicants. The Audit
Manager also stated she requested that the program directors furnish the supporting
documentation to verify eligibility for the selected members. She stated that she
reviewed driver's licenses and birth certificates, but she did not maintain any of the
documentation reviewed. Therefore, there was no audit documentation available to
determine that the auditor properly determined member eligibility. At a minimum, the
audit documentation should have identified the documents the auditor reviewed and
observed to verify member eligibility.

AmeriCorps Special Provisions, (2005) B.14.b provides the following:

       Verification. To verify U S . citizenship, U S . national status or, U S .
       lawful permanent resident alien status, the Grantee must obtain and
       maintain documentation as required by 45 C.F.R. 5 2522.200@) and (c).
       The Corporation does not require programs to make and retain copies of
       the actual documents used to confirm age or citizenship eligibility
       requirements, such as a driver's license, or birth certificate, as long as
       the Grantee has a consistent practice of identifying the documents that
       were reviewed and maintaining a record of the review.

Although a driver's license might be adequate documentation to verify an applicant's
age, it is not adequate documentation to verify U.S. Citizenship, U S . national status, or
U.S. lawful permanent resident alien status according 45 C.F.R. 5 2522.200(c) Primary
documentation of status as a US. citizen or national.

Matching, Level of Effort. Earmarking - The audit documentation does not provide
adequate support to demonstrate that the auditor performed the audit procedures. We
cannot conclude that the CGCS's in-kind contributions complied with grant provisions
and Amencorps Regulations.

The OMB common rule for administrative requirements for non-profit organizations, 45
C.F.R. 5 2543.23(a)(l); OMB A-133 Compliance Supplement, Part 3. Compliance
Requirements, Section G. Matching, Level of Effort, Earmarking; and AmeriCorps
Special Provision B.13.c. Matching Requirements, provide that matching contributions,
including in-kind contributions, need to be verifiable through the non-Federal entity's
records. 45 C.F.R. 5 2543.23@)(5)(i) provides "[tlhe following requirements pertain to
the grantee's supporting records for in-kind contributions from third parties. Volunteer
services shall be documented and, to the extent feasible, supported by the same methods
used by the recipient for its own employees."

Raffa's audit documentation includes narratives of discussions with the CGCS Executive
Director and Director of Finance & Administration that were used as the basis for
accepting the in-kind contributions. Specifically, the audit documentation provides that
the Executive Director stated that he worked with subgrantees for approximately 10 days
and the Director of Finance stated that she provided accounting work for approximately
40 days. This discussion does not meet the requirements of 45 C.F.R. 5 2543.23 or
AmeriCorps Provisions for determining and documenting in-kind contributions.
Based on the requirements, adequate audit documentation to verify in-kind contributions
should include the nature of the in-kind contribution, and a review of the in-kind
contribution based on approved timesheets.

Procurement, Suspensions, and Debarments - Raffa did not provide adequate support to
document the required OMB Circular procedures described below. Specifically, there is
no evidence of the procurement transactions' universe, sample size, or attribute testing
results. As a result, a third party would have difficulty verifying the results and
developing the same conclusions regarding the CGCS's compliance with grant
provisions.

OMB A-133 Compliance Supplement, Part 3. Compliance Requirements, Section I.
Procurement and Suspension and Debarment, Suggested Audit Procedures -
Compliance, states that the auditor will determine compliance with the following:

       4. Select a sample of procurements and perform the following:

           a. Examine contract files and verify that they document the
              significant history of the procurement, including the
              rationale for the method of procurement, selection of
              contract type, contractor selection or rejection, and the
              basis of contract price.
           b. Verify that     procurements provide       full   and   open
              competition.
           c. Examine documentation in support of the rationale to limit
              competition in those cases where competition was limited
              and ascertain if the limitation was justified.
           d. Verify that contract files exist and ascertain if appropriate
              cost or price analysis was performed in connection with
              procurement actions, including contract modifications, and
              that this analysis supported the procurement action.
           e. Verify that the Federal awarding agency approved
              procurements exceeding $100,000 when such approval was
              required. Procurements (1) awarded by noncompetitive
              negotiation, (2) awarded when only a single bid or offer
              was received, (3) awarded to other than the apparent low
              bidder, or (4) specifying a "brand name" product, may
              require prior Federal awarding agency approval.
           f. Verify compliance with other procurement requirements
              specific to an award.

Reporting - The audit documentation does not provide sufficient support to document that
the OMB Circular A-133 Supplement requirements for Jinancial reports and special
reports and the auditor's audit objectives were achieved. As a result, a third party would
have difficulty verifying the results and drawing the same conclusions regarding the
CGCS's compliance with grant provisions.

OMB A-133 Compliance Supplement, Part 4. Agency Program Requirements -
Corporation for National Service, III.L.1. Compliance Requirements, Reporting,
Financial Reports, lists the SF-269A, Financial Status Report, as a report required from
AmeriCorps grantees. AmeriCorps Special Provision B.16.a., Reporting Requirements,
Financial Status Reports, requires that AmeriCorps grantees submit semiannual
cumulative financial status reports summarizing expenditures during the reporting period.

To determine the CGCS's compliance with this provision, the Raffa auditor examined the
timeliness of the CGCS's submission of Financial Status Reports (FSRs) and Progress
Reports. The audit documentation provides that the CGCS submitted its FSR and
Progress Reports in a timely manner. However, neither the actual FSRs or Progress
Reports, nor the FSR and Progress Report attributes (such as the date the FSR was due
and date the FSR was submitted) were maintained in Raffa's files. As a result, we could
not verify that FSRs or Progress Reports were submitted in a timely manner.

OMB A-133 Compliance Supplement, Part 4. Agency Program Requirements -
Corporation for National Service, III.L.3. Compliance Requirements, Reporting, Special
Reports provides that the grantee is responsible for submitting the National Service
Enrollment Form and the Corporation for National Sewice End of Term/Exit Form. The
Corporation uses these forms to support post-senice education award eligibility. We
determined that the audit documentation was insufficient to validate information
contained on the forms. As such, we could not determine or verify whether selected
members' qualifications for a post-service education award were tested and whether the
CGCS complied with its grant provisions.

The Corporation for National Service End of TerdExit Form - This form is used by
grantees to certify, to the Corporation, the number of service hours that each member
completed, and whether the AmeriCorps member is eligible for a post-service education
award. The audit documentation provides that the program director certify members'
service hours and enter them into the AmeriCorps WBRS system. The Raffa auditor
reviewed on-line certifications for the same 10 members that were reviewed for eligibility
and were tested without exception. However, there is insufficient evidence to determine
whether the certifications were reviewed. At a minimum, the audit documentation should
indicate the service hours observed for each member, and whether the members qualified
for an education award.

At the exit conference, Raffa stated that it had hired a consultant to improve audit
efficiency including, eliminating unnecessary documentation maintained in its audit files.
The manner in which the A-133 workpapers were prepared was part of Raffa's effort to
improve efficiency.
Recommendation

We recommend that the Raffa auditors provide sufficient information to enable an
experienced auditor, who has no connection with the audit, to ascertain from the audit
documentary evidence that supports the Raffa auditor's significant judgments and
conclusions.

Raffa's Resvonse

Raffa disagrees with the conclusions, and believes that the working papers have been
prepared in accordance with GAGAS requirements. Raffa states that GAGAS does not
require copies of documents be included in the working papers, only stipulating that the
working papers include "sufficient information to enable an experienced auditor who has
had no previous connection with the audit to ascertain from the audit documentation the
evidence that supports auditors' significant judgments and conclusions."

OIG Comments

The recommendation remains unchanged. We agree that copies of documents do not
have to be maintained in the working papers. However, this issue was not part of our
recommendation. It stated that Raffa's audit documentation did not contain sufficient
information to support its conclusions.

Raffa's response (Attachment 1) is voluminous and we have not responded to each of its
comments. We responded to two areas, eligibility and procurement, that illustrate
deficiencies in the documentation.

Eligibility - Raffa's audit documentation was limited and only included the following in
the working paper files:

"We had access to the on-line information for all CGCS AmeriCorps participants. It is
our understanding that this information is entered into the AmeriCorps system by the
program director and that by entering this information into the system, the program
director is certifying that helshe had received the necessary information to determine that
the person is a US citizen, national or lawful permanent resident and at least 17 years old
at the time of enrollment in the program. We selected 10 individuals and requested that
CGCS provide the support that was obtained for these individuals. We examine(d) for
the following individuals without exception." Raffa listed the 10 members and came to
the conclusion that CGCS complied with the eligibility requirements. This is the extent
of the material contained in the working papers regarding eligibility.

Raffa's response to the draft audit report states, "As stated in the working papers, Raffa
reviewed for the individuals tested, birth certificates which show that the individuals
were born in the U.S." The response also states that Raffa reviewed Social Security cards
and driver's licenses. However, Raffa's working papers only included the information
contained in the preceding paragraph and did not state that birth certificates or any other
types of documents had been reviewed. Raffa's response to draft audit report contains
more descriptive information than what is contained in the working papers. We also note
that driver's licenses do not prove citizenship and are not adequate to test eligibility.

Procurement   - Raffa's working papers contain the following procedure:
"Select a sample of procurements and test for compliance with the Federal requirements.

   "Verify that that the contract files exist and that they document a significant history of
   procurement including the following:" [A list of specific procedures, to be performed,
   is included]

Raffa informed us at the exit conference that testing of specific procurement transactions
was performed. Raffa's response to the draft audit report states, "Therefore, procurement
... compliance requirements did not apply to CGCS."
From the working paper content, we can not determine what testing, if any, was
conducted. If Raffa tested procurements, as the working papers state, the content of the
working papers gives us no reasonable assurance of the universe of procurements, how
the testing sample was selected, the attributes that were tested, the amounts of each
transaction, and the transaction dates.

The Raffa response indicates that it may not have a complete understanding of the grant
and the compliance requirements. On page 10 of the response, Raffa states, "The
Compliance Supplement does not provide any suggested audit procedures nor does it
state the number of hour[s] that are required for enrollment to become eligible for a post-
award benefit." This information is contained in the AmeriCorps grant agreement and is
readily available to an auditor. It should have been reviewed as part of the A-133 audit.

Additionally, Raffa states in its response, on page 10, that it reviewed the on-line
timesheets in the system to ensure that the timesheets were clerically accurate and that the
timesheets for the individuals were tested and approved and certified for accuracy by the
program director. However, the extent of Raffa's audit step, per its audit documentation,
was limited to a review of data that was entered into the AmeriCorps WBRS system by
the grantee. Absent the testing of actual hardcopy timesheets and reviewing member and
supervisor signatures, this procedure could not fully verify the accuracy of the member
service hours or determine whether the member actually earned an education award.

In summary, we recommend that Raffa provide sufficient, documentary information to
support their significant judgments and conclusions.




Carol Bates
Assistant Inspector General for Audit
REPORT DISTRIBUTION


Independent Audit Firm

Raffa, P C .


Audited Organization

Council of the Great City Schools


Federal Office of Inspector General

Department of Education


Corporation for National and Community Service

Chief Financial Officer
Deputy Chief Financial Officer for Planning & Program Management
Director, Office of Grants Management
ATTACHMENT 1

RAFFA Response
     RA FF              Ms. Carol Bates
                        Assistant Inspector General for Audit
                        Corporation for National & Community Service
     CoNsULTlNG         Office of Inspector General
     ACCOUNTING         1201 New York Avenue, NW, Suite 830
     TECHNOLOGY         Washington, DC 20525

      Dear Ms. Bates:
      I am in receipt of your draft report dated July 19, 2006 with respect to the Quality Control Review that was
      performed on our June 30, 2005 Off~ceof Management and Budget (OMB) Circular A-133 audit of the
      Council of the Great City Schools. Upon reading the report, it appears that it is CNCS's initial assessment
      that our audit did not meet the requirements of generally accepted government auditing standards
      (GAGAS), as copies of supporting documents were not maintained in the file. We disagree with this
      conclusion and have documented the basis for our conclusion on the attached document. Specifically, we
      believe that our working papers have been prepared in accordance with GAGAS Paragraphs 4.23 through
      4.24. GAGAS does not require that copies of documents be included in the working papers. As stated in
      Paragraph 4.22, GAGAS only requires that the working papers include "sufficient information to enable an
      experienced auditor who has had no previous connection with the audit to ascertain from the audit
      documentation the evidence that supports the auditors' significant judgments and conclusions." We believe
      that the working papers provide such information. Furthermore, as GAGAS provides no further guidance
      as to the extent of working paper documentation, Raffa used the guidance provided in Statement on
      Auditing Standards No. 96, Audit Documentation, which was issued by the American Institute of Certified
      Public Accountants. As stated in the attached document, SAS No. 96 does not require auditors to include
      copies of all items reviewed in the working papers. SAS No. 96 only requires that the working papers
      include "identification of the items tested". SAS No. 96 also provides specific examples of what is
      required to be included in the working papers when samples are selected on a haphazard, random or
      systematic basis and when a threshold is used for sample selection. Accordingly, we believe that our
      working papers are appropriately documented and, therefore, disagree with the conclusions in the CNCS
      report. We also disagree with certain other findings included in the CNCS draft report and believe that,
      while already documented in the working papers, further explanations and clarification may be warranted.
      As a result, we have also provided such explanations and clarification in the attached document.
      If you have any questions or would like to discuss our interpretation of the authoritative literature, the
      issues identified by CNCS or our responses which are included in the attached document, please do not
      hesitate to contact me. I look forward to hearing from you soon and to the resolution of the items noted.
      Sincerely,



      Kimberly D. Robertson
      KDW~YP

      Enclosures
Embracing Y w Vision
1899 L STREET,     N W I S U I T E 6001 W A S H I N G T O N , D C 2 0 0 3 6 1 2 0 2 - 8 2 2 - 5 0 0 0 1   F: 202-822-06691 www.rafia.com
                            Council for the Great City Schools (CGCS)
      Corporation for National & Community Sewice (CNCS) -Response        to Draft OIG Report
                                          Number 06-34
                                For the Year Ended June 30,2005


 CNCS COMMENT
 -                                                             RAFFA RESPONSE

Results. The second paragraph of CNCS's draft      Raffa disagrees with this comment.           As
report indicates that CNCS believes that Raffa's   explained in this document, Raffa appropriately
audit did not meet the documentation               applied and adhered to the requirements of
requirements of GAGAS or the requirements in       GAGAS, OMB Circular A-133 and its related
OMB Circular A-133 and its related supplement.     supplement, as well as pronouncements issued
                                                   by the American Institute of Certified Public
                                                   Accountants (AICPA). Raffa's basis for this
                                                   statement is disclosed throughout this document,
                                                   with specific references in the Audit
                                                   Documentation section.

Audit Documentation. The audit documentation       Raffa's audit documentation met all of the
for test of compliance with Cash Management;       requirements of GAGAS as well as the
Eligibility; Matching, Level of Effort,            requirements issued by the American Institute of
Earmarking; Procurement, Suspensions and           Certified Public Accountants (AICPA). These
Debarment; and Reporting was not prepared in       requirements are stated in GAGAS 4.22 through
accordance with GAGAS requirements.                4.24 as well as Statement on Auditing Standards
                                                   (SAS) No. 96 issued by the AICPA.

                                                   GAGAS 4.22 states that audit documentation
                                                   related to planning, conducting, and reporting on
                                                   the audit should contain sufficient information to
                                                   enable an experienced auditor who has had no
                                                   previous connection with the audit to ascertain
                                                   from the audit documentation the evidence that
                                                   supports the auditors' significant judgments and
                                                   conclusions.      Audit documentation should
                                                   contain support for findings, conclusions, and
                                                   recommendations before auditors issue their
                                                   reports.

                                                   GAGAS 4.23 states that the quantity, type, and
                                                   content of audit documentation are a matter of
                                                   the auditors' professional judgment. GAGAS
                                                   4.24 further states that the preparation of audit
                                                   documentation should be appropriately detailed
                                                   to provide a clear understanding of its purpose
                                                   and source and the conclusions the auditors
                                                   reached, and it should be appropriately
Response to Draft OIG Report No. 06-34                                                     Page 2

                CNCS COMMENT             -                RAFFA RESPONSE

                                             organized to provide a clear link to the
                                             findings, conclusions, and recommendations
                                             contained in the audit report.
                                             In determining the nature and extent of the
                                             documentation to be included in the working
                                             papers, which, as stated in GAGAS 4.23 is the
                                             auditors' professional judgment, Raffa used the
                                             guidance provided in SAS 96. Specifically,
                                             Paragraph 8 of SAS 96 states that audit
                                             documentation should include abstracts or copies
                                             of significant contracts or agreements that were
                                             examined to evaluate the accounting for
                                             significant transactions.    Additionally, audit
                                             documentation of tests of operating effectiveness
                                             of controls and substantive tests of details that
                                             involve inspection of documents or confirmation
                                             should include an identification of the items
                                             tested.
                                             Footnote 5 to Paragraph 8 further states that the
                                             identification of the items tested may be satisfied
                                             bv indicating the source from which the items
                                             were selected and the specific criteria. for
                                             example:
                                                     When a haphazard or random sample is
                                              selected, the documentation should include
                                              identifiinp characteristics (for example. the
                                              specific invoice numbcr>..~f thr itmm included
                                              in the sample),
                                             >     When all items over a specified dollar
                                              amount are selected from a listing, the
                                              documentation need describe only the scope
                                              and the identification of the listing (for
                                              example, all invoices over $25,000 from the
                                              December sales iournall.
                                             9       When a systematic sample is selected
                                              from a population of documents, the
                                              documentation need only provide an
                                              identification of the source of the documents
                                              and an indication of the starting point and the
                                              sampling interval (for example, a systematic
                                              sample of shipping reports was selected from
                                              the shipping log for the period from X to Y,
                                              starting with report number 14564 and
                                              selecting every 250th report from that point).
Response to Draft O K Report No. 06-34                                                            Page 3

                CNCS COMMENT                                     RAFFA RESPONSE
                                                     The individual findings of the CNCS auditors
                                                     regarding documentation centered on the fact
                                                     that copies of items examined were not
                                                     maintained in the working papers. While copies
                                                     were not maintained, the scope of the testing, the
                                                     items examined and conclusions were properly
                                                     documented in the working papers, as required
                                                     by SAS 96, such that an experienced auditor who
                                                     had no previous connection with the audit could
                                                     identify the audit documentation that was
                                                     examined and could reperfom the procedures
                                                     documented and come to the same conclusion as
                                                     stated in the working papers.

  Cash Management. The audit documentation           For the CNCS grants, CGCS uses the
 does not provide adequate support to                reimbursement method to request funds.
 demonstrate that the auditor performed the audit    According to the OMB Compliance Supplement
 procedures. Other than relying solely on the        and as documented in our audit program, in such
 auditor's statements, a third party would be        instances the auditor should select a sample of
 unable to validate the auditor's test work or       reimbursement requests and trace the sample to
 determine whether CGCS met grant cash               supporting documents which show that the costs
 management requirements. Additionally, the          for which reimbursement is requested were paid
 audit documentation does not provide                prior to the date ofthe reimbursement request.
 corresponding support, such as: (I) request for
 funds, (2) draw down information, (3) schedule      As stated in our working papers, CGCS prepares
 of expenses examined, (4) time period of the        one Request for Reimbursement Form per month
 expenses examined, (5) comparison of the            which generally covers all of the expenses
 expenses incurred and the corresponding request     incurred in the prior month. Raffa haphazardly
 for funds, and (6) reconciliation of the expenses   selected the Request Reimbursement Forms
 to the general ledger that would demonstrate that   dated September 20, 2004, January 25, 2005,
 the auditor performed the audit procedures.         April 22,2005 and June 7,2005 and ensured that
                                                     the expenses stated on the forms tied into the
                                                     general ledger for the periods stated (item #5).
                                                     Raffa also verified that the expenses were
                                                     incurred prior to the date of the forms and
                                                     reconciled the amount of the draws with the
                                                     expenses incurred (item #6). Our working
                                                     papers also indicate that we examined the draws
                                                     for the months of September 2004 and January
                                                     and April 2005 (item #2). Copies of the actual
                                                     request forms (item #1) are maintained by and
                                                     can be obtained from CGCS. The request form
                                                     documents the period of the expenses (item #4).
                                                     The copy of the general ledger detail which
                                                     supports the expenses included on the request
                                                     form is attached to the copy of the form
                                                     maintained by CGCS (item #3).
Response to Drnft OIG Report No. 06-34

                CNCS COMMENT                                     RAFFA RESPONSE
                                                     Based upon the above, we believe that the
                                                     procedures performed and our documentation of
                                                     such are in accordance with GAGAS, OMB
                                                     Circular A-133 and its related supplement and
                                                     SAS 96 and would enable an experienced
                                                     auditor, who had no previous connection with
                                                     the audit knowledge of the items examined, the
                                                     ability to reperform the procedures documented
                                                     and come to the same conclusion as stated in the
                                                     working papers. There are no provisions within
                                                     GAGAS, OMB or SAS 96 which require that the
                                                     items cited in CNCS's draft report be maintained
                                                     in the working papers.

  For subgrantees, the audit documentation does      The OMB Compliance Supplement requires that
  not include any supporting documentation, such     the auditor (1) select a sample of subgrantees to
  as: (1) draw down request and information, (2)     determine the appropriateness of the procedures
  subgrantee    reimbursement      request,    (3)   and (2) determine whether the subgrantees were
  reimbursement checks, or (4) test schedules and    reimbursed in a timely manner. As stated on our
  documentation      to     validate      whether    working papers, for draws requested during the
  reimbursement transactions were reviewed for       months of September 2004 and January and
  appropriateness.                                   April 2005, we noted by examination of the
                                                     Request for Reimbursement Form and the
                                                     attached general ledger detail that CGCS had
                                                     paid the subgrantees prior to requesting the
                                                     reimbursement (item #I). The Compliance
                                                     Supplement does not require that we examine, as
                                                     part of our cash management testwork
                                                     subgrantee reimbursement requests and
                                                     reimbursement checks (items # 2 and 3).
                                                     However, such items were tested in our cash
                                                     disbursement test procedures, which include the
                                                     examination of copies of checks and
                                                     invoiceslpayment request forms. During our cash
                                                     disbursement testwork, we also ensured that the
                                                     expenses were recorded in the proper period,
                                                     recorded in the proper general Ledger account,
                                                     that the invoice or payment request was
                                                     clerically accurate, that the invoice or payment
                                                     request was approved by an authorized signer,
                                                     that the cancelled check was signed by an
                                                     authorized signer and that the cancelled check
                                                     was endorsed by the payee. As stated in our
                                                     workpapers, CGCS issued less than 100 checks
                                                     which related to the CNCS programs during the
                                                     year ended June 30,2005. Of these 100 checks,
                                                     Raffa performed all of the aforementioned
                                                     procedures on 15 of the checks. All 15 checks
Response to Draft OIG Report No. 06-34                                                              Page 5

                CNCS COMMENT                                       RAFFA RESPONSE

                                                       were payments to subgrantees under the CNCS
                                                       grant.

                                                       Based upon the above, we believe that the
                                                       procedures performed and our documentation of
                                                       such are in accordance with GAGAS, OMB
                                                       Circular A-133 and its related supplement and
                                                       SAS 96 and would enable an experienced
                                                       auditor, who had no previous connection with
                                                       the audit knowledge of the items examined, the
                                                       ability to reperform the procedures documented
                                                       and come to the same conclusion as stated in the
                                                       working papers. There are no provisions within
                                                       GAGAS, OMB or SAS 96 which require that the
                                                       items cited in CNCS's draft report be maintained
                                                       in the working papers.

  Eligibilify. Raffa did not describe the type of      According to the OMB A-133 Compliance
  documentation it reviewed to determine               Supplement, AmeriCorps members must be
  AmeriCorps eligibility. As a result, a third party   citizens, nationals, or lawful permanent resident
  would be unable to determine, other than by          aliens of the United States and must be not less
  accepting the auditor's statements, whether the      than 17 years old at the time of enrollment in the
  documents reviewed for the selected members          program. As stated in the working papers, Raffa
  met the requirements of 45 C.F.R. Sect.              reviewed for the individuals tested, birth
  2522.200(a).                                         certificates which showed that the individuals
                                                       were born in the US.(there were no nationals or
                                                       lawful permanent resident aliens), U.S.
                                                       passports, U.S. social security cards, and state
                                                       issued driver's licenses. In instances where a
                                                       social security card was provided, Raffa also
                                                       examined a copy of the state issued driver's
                                                       license for identification purposes and to verify
                                                       the individual's age. All of these documents are
                                                       government issued documents and reliance is
                                                       placed on the validity of such items nationwide.
                                                       In fact, all of these items are on the list of
                                                       acceutable documents issued bv the U.S.
                                                       ~ep&trnent of Homeland security, US.
                                                       Citizenship and Immigration Service, for
                                                       immigration purposes. -

                                                       There are no provisions within GAGAS, OMB
                                                       or SAS 96 which require that copies of the items
                                                       examined be maintained in the working papers.
                                                       Additionally, AmeriCorps Special Provisions,
                                                       (2005) B.24b states that to verify U.S.
                                                       citizenship, US. national status or US. lawful
                                                       permanent resident alien stats, grantees (CGCS)
Response to Draft OIG Report No. 06-34                                                               Page 6

                CNCS COMMENT                                     RAFFA RESPONSE

                                                    must obtain and maintain documentation as
                                                    required by 45 C.F.R. Section 2522.200(b) and
                                                    (c). Section B.24b further states that CNCS does
                                                    not rewire programs to make and retain copies
                                                    of the actual documents used to confirm age or
                                                    citizenship eligibility requirements, such as a
                                                    driver's license, or birth certificate, as long as the
                                                    grantee (CGCS) has a consistent practice of
                                                    identifving the documents that were reviewed
                                                    and maintaining a record of the review. As
                                                    stated in our workpapers, CGCS has a consistent
                                                    practice of identifying the documents that were
                                                    reviewed and maintaining a record of the review.
                                                    This practice is documented by the CGCS
                                                    program director certifying that heishe has
                                                    examined the application form and certifying
                                                    that helshe has examined and received the
                                                    necessary information to determine that the
                                                    person is a U.S. citizen, national or lawful
                                                    permanent resident and has determined that the
                                                    individual is at least 17 years old at the time of
                                                    enrollment in the program. Although not
                                                    required by AmeriCorps Special Revisions
                                                    B.24.b, copies of all supporting documents are
                                                    maintained by CGCS.

                                                    Based upon the above, we believe that the
                                                    procedures performed and our documentation of
                                                    such are in accordance with GAGAS, OMB
                                                    Circular A-133 and its related supplement and
                                                    SAS 96 and would enable an experienced
                                                    auditor, who had no previous connection with
                                                    the audit knowledge of the items examined, the
                                                    ability to reperform the procedures documented
                                                    and come to the same conclusion as stated in the
                                                    working papers.

 Matching. The audit documentation does not         The CGCS has a requirement to meet a match of
 provide adequate support to demonstrate that the   $236,932 on the FY 05106 grant and $159,661
 auditor performed the audit procedures. We can     on the FY 04/05 grant. The OMB common rule
 not conclude that CGCS's in-kind contributions     states that matching contributions, including in-
 complied with grant provisions and AmeriCorps      kind contributions, need to be verifiable through
 Regulations.                                       the non-Federal entity's (CGCS) records. 45
                                                    C.F.R. Section 2543.23(h)(5)(i) further states
                                                    that volunteer services shall be documented and,
                                                    to the extent feasible, supported by the same
                                                    methods used by the recipient (CGCS) for its
                                                    own employees.
Response to Drafi OIG Report No. 06-34                                                   Pnge 7

                CNCS COMMENT                           RAFFA RESPONSE

                                           As stated in our audit working papers, for the FY
                                          05/06 grant, by June 30, 2005, CGCS had met
                                           $49,258 of the $256,932 required match. For the
                                          FY 04/05 grant, the working papers state that
                                          CGCS received in-kind services totaling $196,309,
                                          which exceeded the matching requirement of
                                          $159,661. As documented in the working papers,
                                          Raffa agreed the $196,309 to the amount included
                                          on the final Financial Status Report that was
                                          submitted to CNCS. This Financial Status Report
                                          was tested during our reporting compliance
                                          textwork. As stated in our workpapers for
                                          reporting compliance, we ensured that the total
                                          expenses stated on the final Financial Status Report
                                          agreed to the general ledger. We also noted that
                                          the general ledger reported in-kid expenses of
                                          $196,309. The note on our working papers stating
                                          that approximately 10 days of the Executive
                                          Director's time and approximately 40 days of the
                                         Director of Finance's time were included in the in-
                                         kind expenses reported in the general ledger
                                         merely documents an observation that we made
                                         while determining the nature of the in-kind
                                         services. During our testing of CGCS's payroll
                                         system, which is documented in payroll testing
                                         section, we determined that reliance could be
                                         placed on the system and that the hours stated on
                                         timesheets agreed to the amounts and programs
                                         charged in the general ledger. As stated in our
                                         payroll testing working papers, we examined the
                                         payroll journals and checks, agreed the hours on
                                         the timesheets to the payroll journals, ensured that
                                         the time charges in the general ledger agreed with
                                         the timesheets for each grant or program, ensured
                                         that the payroll allocation entries were charged to
                                         the proper grantlprogram and ensured that the
                                         timesheets were approved by an authorized
                                         supervisor and signed by the employee. The
                                         Director of Finance's timesheets were selected
                                         during this testing and no exceptions were noted.
                                         Therefore, we were able to determine that reliance
                                         could be placed on CGCS's payroll system and
                                         that all time charged in the general ledger was
                                         properly supported by timesheets and could then
                                         conclude that the time of the Executive Director
                                         and the Director of Finances was appropriate and
                                         supportable by timesheets.
Response to Drafl OIG Report No. 06-34                                                                 Pnge 8

                CNCS COMMENT                          -   -
                                                                      RAFFA RESPONSE
                                                          Based upon the above, we believe that the
                                                          procedures performed and our documentation of
                                                          such are in accordance with GAGAS, OMB
                                                          Circular A-133 and its related supplement and
                                                          SAS 96 and would enable an experienced
                                                          auditor, who had no previous connection with
                                                          the audit knowledge of the items examined, the
                                                          ability to reperform the procedures documented
                                                          and come to the same conclusion as stated in the
                                                          working papers. There are no provisions within
                                                          GAGAS, OMB or SAS 96 which require that the
                                                          items cited in CNCS's draft report be maintained
                                                          in the working papers.

 Procurement, Suspensions and Debarment.                  CGCS did not procure any services above the
 Raffa did not provide adequate support to                $25,000 small purchase threshold, which is fixed
 document the procurement transactions universe,          by 41 U.S.C. (403)ll.          Additionally, as
 sample size, or attributed results. As a result, a       documented in our testing of the eligibility
 third party would have difficulty verifying the          compliance requirement, the general ledger
 results and developing the same conclusion               detail for the AmeriCorps grants reflect that the
 regarding CGCS's compliance with grant                   only expenditures under these grants were sub-
 provisions.                                              grant payments to the entities listed in the
                                                          AmeriCorps grant agreements, as well as internal
                                                          charges for salaries, fiinge benefits, telephone
                                                          and administrative expenses.          As stated
                                                          previously, the sub-grant payments were tested
                                                          during our cash disbursements testing and is
                                                          documented in our working papers. Therefore,
                                                          procurement, suspension and debarment
                                                          compliance requirements did not apply to CGCS.

 Reporting. The documentation does not provide            According to the OMB Circular A-133
 suff~cientsupport to document that the OMB               Compliance Supplement, for             financial,
 Circular A-133 Supplement requirements for               performance and special reports, the auditor is
 financial reports and special reports and the            required to ensure that the appropriate basis of
 auditor's audit objectives were achieved. Neither        accounting was used, ensure that the amounts on
 the actual FSR's or Progress Reports nor the             the reports agree with the accounting records,
 FSR and Progress Report attributes were                  test any underlying documents for mathematical
 maintained in Raffa's files. As a result, we could
 not verify that FSR's or Progress Reports were           accuracy and obtain a written representation
 submitted in a timely manner.                            from management that the reports provided were
                                                          true copies of what was submitted. As
                                                          documented on the working papers, Raffa
                                                          ensured that the amounts on the financial reports
                                                          agreed to the general ledger. We also
                                                          documented which reports were required to be
                                                          filed and the respective due dates and
Response to Draft OIG Report No. 06-34                                                              Page 9

                CNCS COMMENT                                       RAFFA RESPONSE
                                                      documented that, based on the dates of the
                                                      reports, it appeared that the reports were filed in
                                                      a timely manner. Additionally, as required in the
                                                      Compliance Supplement, we obtained a written
                                                      representation from management that the reports
                                                      provided were true copies of what had been
                                                      filed.

                                                      Based upon the above, we believe that the
                                                      procedures performed and our documentation of
                                                      such are in accordance with GAGAS, OMB
                                                      Circular A-133 and its related supplement and
                                                      SAS 96 and would enable an experienced
                                                      auditor, who had no previous connection with
                                                      the audit knowledge of the items examined, the
                                                      ability to reperform the procedures documented
                                                      and come to the same conclusion as stated in the
                                                      working papers. There are no provisions within
                                                      GAGAS, OMB or SAS 96 which require that the
                                                      items cited in CNCS's draft report be maintained
                                                      in the working papers.

  We determined that the audit documentation was      Based on the Compliance Supplement, the
  insufficient to validate information contained on   National Service Enrollment Form is used by
  the National Service Enrollment Form and the        CNCS to enroll participants in the AmeriCorps
  Corporation for National Service End of             program. The Supplement also states that the
  TermExit Form. As a result, we could not            key line item (i.e., line item containing critical
  determine or verify whether selected members'       information) on the enrollment form is Part 3-
  qualifications for a post-service education award   Americorps Member Enrollment Information.
  were tested and whether CGCS complied with          The Compliance Supplement does not provide
  its grant provisions.                               any suggested audit procedures.

                                                      As documented in our working papers and as
                                                      stated above, member enrollment information
                                                      was tested during our eligibility compliance
                                                      testing. Additionally, as stated in the special
                                                      reporting requirements compliance section of our
                                                      working papers, we documented that we
                                                      examined the eligibility forms on the
                                                      AmeriCorps on-line system. Additionally, as
                                                      stated previously, we noted that the CGCS
                                                      program director certified the enrollment form
                                                      and certified that helshe examined and received
                                                      copies of the documents which proved U S .
                                                      citizenship status and the age at the enrollment
                                                      date. We also ensured that the forms were
Response to Draft OIG Report No. 06-34                                                          Page 10

                CNCS COMMENT                                  RGFFA RESPONSE
                                                 approved by the program director and submitted
                                                 to AmeriCorps.      Neither the Compliance
                                                 Supplement nor the CNCS agreement provide
                                                 any suggested procedures.

  There is insufficient evidence to determine    Based on OMB Circular A-133 Compliance
  whether the Corporation for National Service   Supplement, the Corporation for National
  End of TermIExit Form was reviewed.            Service End of Term Exit Form is used by
                                                 grantees to certify to CNCS the number of hours
                                                 that each AmeriCorp member completed and
                                                 whether the AmeriCorps member is eligible for a
                                                 oost-service benefit.         The Comoliance
                                                 Supplement states that the kc! line item (i.e., line
                                                 item containing critidnl information) is in Pan 3-
                                                 Sewice hours completed by an AmeriCorps
                                                 member and the AmeriCorps member's
                                                 entitlement to an education benefit.           The
                                                 Compliance Supplement does not provide any
                                                 suggested audit procedures nor does it state the
                                                 number of hour that are required for enrollment
                                                 to become eligible for a post-service award
                                                 benefit.

                                                 As documented in our working papers during our
                                                 special reporting requirements compliance
                                                 section, we reviewed the on-line time sheet in the
                                                 system to ensure that the timesheets were
                                                 clerically accurate and that the timesheets for the
                                                 individuals tested were approved and certified
                                                 for accuracy by the program director of the site
                                                 tested.
